                                Office of Inspector General

  DEPARTMENT OF HOMELAND SECURITY
                                U.S. Department of Homeland Security
                                Washington, DC 20528



      Office of Inspector General


          Risk Management Advisory 

       for the SBInet Program Initiation





             Office of Audits

OIG-07-07                       November 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                         November 14, 2006

                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This advisory report addresses risks and challenges for the SBInet program initiation. It is based on
interviews with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                               Richard L. Skinner 

                                               Inspector General 

Table of Contents/Abbreviations 


  Executive Summary ....................................................................................................................... 1 


  Background .................................................................................................................................... 2 


  Results of Review .......................................................................................................................... 3 


       Organizational Capacity for Management and Oversight ....................................................... 3 


       Operational Requirements & Performance Management ........................................................ 6 


       Recommendations .................................................................................................................... 9 


       Management Comments and OIG Analysis .......................................................................... 10 



Appendices

  Appendix A:            Lessons Learned From Other DHS Major Acquisition Programs ..................... 11 

  Appendix B:            Purpose, Scope, and Methodology ..................................................................... 14 

  Appendix C:            U.S. Customs and Border Protection Response to the Draft Report .................. 15 

  Appendix D:            Chief Procurement Officer Response to the Draft Report ................................. 22 

  Appendix E:            Major Contributions to this Report .................................................................... 23 

  Appendix F:            Report Distribution ............................................................................................. 24 



Abbreviations

  APB             Acquisition Program Baseline      

  CBP             U.S. Customs and Border Protection 

  CPO             Chief Procurement Officer 

  DHS             Department of Homeland Security 

  EAB             Enterprise Architecture Board     

  IRB             Investment Review Board 

  JRC             Joint Requirements Council 

  OBP             Office of Border Patrol 

  OIG             Office of Inspector General 

  PMO             Program Manager Office 

  RFP             Request for Proposal 

  SBI             Secure Border Initiative 

  SBInet          Secure Border Initiative network 

  SOO             Statement of Objectives 

                                                                                 Advisory
OIG                                                                               Report
Department of Homeland Security
Office of Inspector General


Executive Summary
                The purpose of this report is to highlight certain acquisition risks
                associated with the SBInet program. This is the first in a series of
                reviews we plan to perform of the SBInet program and its contracts.
                We reviewed the acquisition strategy of the SBInet program and
                sought to determine whether lessons learned from other DHS major
                acquisitions were being applied. We focused our review on the two
                most critical risk areas for a new program: organizational capacity and
                operational requirements.

                We analyzed prior DHS OIG and GAO reviews of other major
                acquisition programs within the department (See Appendix A). We
                then reviewed DHS’ capacity for managing the program and SBInet’s
                operational requirements. We completed our review in August 2006
                and provided draft reports to department officials prior to the award of
                the systems integration contract in September 2006.

                Although the department was actively seeking to identify and apply
                lessons learned from the experience of other DHS programs, it had not
                established, prior to awarding the contract, the organizational capacity
                to oversee, manage, and execute the program; or properly defined,
                validated, and stabilized its operational requirements.

                Since our review, the status of the SBInet program has changed
                substantially, most notably, the award of the Boeing contract. With
                the selection of the solution proposed by Boeing, the department has
                moved rapidly to refine and stabilize requirements and implement
                performance management systems and processes, while continuing to
                build up its program management and program oversight capacity.
                Although the department is taking the necessary steps to mitigate
                many of the attendant risks associated with a performance based
                contract, much more work remains before adequate controls are in
                place to ensure effective contract oversight and implementation.




                    Risk Management Advisory on the SBInet Program Initiation


                                             Page 1 

Background
             In the fall of 2005, the White House and the department announced the
             Secure Border Initiative (SBI), a comprehensive multi-year effort to
             secure the borders and reduce illegal immigration, which included a
             U.S. Immigration and Customs Enforcement led plan to increase and
             improve the apprehension, detention, and removal of illegal aliens; a
             U.S. Citizenship and Immigration Service led plan for expanding the
             guest worker program and streamlining immigration benefits
             processes; and a U.S. Customs and Border Protection (CBP) led
             program to gain control of the nation’s land borders. The CBP
             program, referred to as SBInet, is intended to improve border control
             operations, deploying more infrastructure and personnel with
             modernized technology and tactics.

             The objective of SBInet is to develop solutions to manage, control, and
             secure the borders using a mix of proven, current, and future
             technology, infrastructure, personnel, response capability, and
             processes. SBInet is a new major acquisition program that replaces
             and expands upon two previous efforts to gain control of the borders:
             the Integrated Surveillance Intelligence System (ISIS) and the
             America’s Shield Initiative (ASI). The department recognized that
             differences in the geography and conditions among sectors of the
             border require a different mix of technology, infrastructure, and
             personnel. Therefore, the department decided to award a multi-year
             contract to a systems integrator to manage this effort.

             To select the systems integrator, the department issued a request for
             proposals in April 2006, asking industry to propose a unified border
             control strategy and provide solutions that include the full range of
             services, products, and management required to ensure
             accomplishment of the SBInet program objectives. In response,
             industry teams defined approaches and tasks for a national strategy, as
             well as a tailored implementation plan for a Border Patrol sector.

             In September 2006, the department awarded an indefinite delivery,
             indefinite quantity contract, leaving the work tasks and deliverables
             largely undefined until the government negotiates a specific delivery
             task order. The program office plans to negotiate separate task orders
             for each of the Border Patrol’s 20 sectors spanning the northern and
             southern borders. The contract base period is only three years with
             three 1-year options; however, early plans were for a long-term
             arrangement. Also, the value of the contract was anticipated to be
             greater. The FY 2007 budget request for SBInet included $100 million
             for border security technology and over $1.1 billion was appropriated

                Risk Management Advisory on the SBInet Program Initiation


                                         Page 2

                    for tactical infrastructure at the border in FY 2007. However, early
                    forecasts and estimates of the program’s value range from $8 billion to
                    $30 billion.


Results of Review
                    The department embarked on this multi-billion dollar acquisition
                    project without having laid the foundation to oversee and assess
                    contractor performance and control cost and schedule. While the
                    department had not established the organizational capacity to oversee,
                    manage, and execute the program; or properly defined, validated, and
                    stabilized its operational requirements prior to awarding the contract,
                    the department was taking steps to mitigate many of the attendant
                    risks. The department identified actions, pending the selection of the
                    systems integration contractor and their proposed solution for securing
                    the border, to refine requirements and build capacity. The program
                    office was actively seeking to identify and apply lessons learned from
                    the experience of other DHS programs.

                    Since our review, the department has developed a corrective action
                    plan, which is responsive to concerns raised in this report.
                    Additionally, the program office has continued to develop its program
                    management plans with the systems integrator.


Organizational Capacity for Management and Oversight
                    The department does not have the capacity needed to effectively plan,
                    oversee, and execute the SBInet program; administer its contracts; and
                    control costs and schedule. The department’s acquisition management
                    capacity lacks the appropriate work force, business processes, and
                    management controls for planning and executing a new start major
                    acquisition program such as SBInet.

                    Without a pre-existing professional acquisition workforce, CBP has
                    had to create staffing plans, locate workspace, and establish business
                    processes, while simultaneously initiating one of the largest
                    acquisition programs in the department. For example, in mid-July, the
                    program office moved into reconfigured offices from a temporary
                    work site in CBP headquarters. Also, during our review, the program
                    office identified and began implementing a management information
                    system with the document control and workflow processes needed to
                    support program management operations and administer the contract;
                    however, full implementation was deferred until after contract award.

                       Risk Management Advisory on the SBInet Program Initiation


                                                Page 3

                          Staffing has been a critical shortfall for the program office. The
                          associated organizational structure was in flux and key positions were
                          still being identified and filled. For example, four individuals have
                          filled the Program Management Office (PMO) Director position
                          during the brief course of our review. The program office recently
                          performed the work breakdown analysis needed to define and stabilize
                          the structure and restructured the organization to reflect this analysis.
                          While the emerging organizational structure proposed 252 positions, it
                          is unclear whether that organization would be up to the challenge of
                          the tasks ahead. At the time of review, the specific challenges
                          included:

                              	    Ensuring the program office can handle its workload. As of
                                   August 29, 2006, only 69 of 252 positions were filled. Some
                                   of the positions were filled with personnel from the Offices of
                                   Border Patrol, Field Operations, and CBP Air and Marine; in
                                   some instances the personnel were detailed from field offices.
                                   The workload demands on the program office will balloon with
                                   necessary but deferred tasks1 and control implementation due
                                   after award. Further, the success of the pilot sectors will
                                   increase pressure to rapidly deploy SBInet capabilities to the
                                   remaining sectors of the border, raising the question of how the
                                   program office could handle accelerating the program.2

                              	    Ensuring organizational roles and functions are assigned
                                   appropriately for employees and contractors. While
                                   contractors are appropriate for support services, only federal
                                   employees should perform inherently governmental functions.3
                                   The emerging organizational structure identified 65% of the
                                   252 positions as contractors and only 27 of the 69 filled
                                   positions were government employees. At this decision-
                                   intensive stage of the program, when courses of action are
                                   being set, this indicates the extent of reliance on service
                                   contractors will be excessive for the management control
                                   environment.



1
   The deferred or impending tasks include: negotiating the contract and multiple delivery tasks orders; developing the
deferred acquisition program baseline, plans, budgets, and cost estimates; and analyzing the winning proposal and
approach to identify deficiencies and how the government can best meet those missing requirements.
2
  The corrective action plan submitted by CBP (Appendix C) indicates the staffing plan that has been approved is for 270
positions, as described on p.18.
3
  OMB Policy Letter 92-1 and Circular A-76 describe inherently governmental functions as those so intimately related to
the public interest as to mandate performance by government employees, and provide guidelines for ensuring that
accountability is not undermined by the use of contractor services.

                              Risk Management Advisory on the SBInet Program Initiation


                                                         Page 4

                               	    Ensuring access to requisite knowledge and skills. In hiring
                                    and staff development, the program office will need to ensure
                                    the workforce has the appropriate qualifications and necessary
                                    training in acquisition management, as well as the right skill
                                    mix. At issue is whether the emerging organizational structure
                                    will adequately provide for the mix of business and technical
                                    disciplines needed for the effective use of integrated product
                                    teams, which are required by OMB capital budgeting
                                    regulations.4

                               	    Mitigating workforce turnover and fluctuations. As a stopgap
                                    measure, CBP is detailing agents and other staff on temporary
                                    assignment to identify and perform acquisition management
                                    tasks for which they are not experienced or trained. Many of
                                    the positions were filled with Office of Border Patrol and U.S.
                                    Customs and Border Protection Air and Marine agents detailed
                                    from distant field offices. The program office had no clear
                                    plan for replacing the detailees and transferring their
                                    institutional knowledge. Without turnover procedures and
                                    documentation of decisions and deliberations, new personnel
                                    will be at a disadvantage in managing implementation.

                           While CBP is taking steps to meet these challenges, the department
                           needs to take steps to ensure effective investment review and
                           oversight. The department has yet to establish robust investment
                           oversight processes integrated into planning, programming, budgeting,
                           and execution systems. The department’s existing processes were
                           sidelined in the urgent pursuit of SBInet’s aggressive schedule. The
                           department’s Investment Review Board and Joint Requirements
                           Council provide for deliberative processes to obtain the counsel of
                           functional stakeholders. However, for SBInet, these prescribed
                           processes were bypassed and key decisions about the scope of the
                           program and the acquisition strategy were made without rigorous
                           review and analysis or transparency. The program office stated its
                           intention to present program plans and the appropriate program
                           documentation for Joint Requirements Council review within 60 days
                           of award and the Investment Review Board within 90 days, in order to
                           ensure the program is on the right track, and to bolster support for
                           revising its FY 2008 budget estimates.



4
  OMB Circular A-11 requires use of Integrated Product Teams (IPTs). IPTs bring a variety of functional disciplines to
the task, ensuring full consideration of perspectives in making program decisions, so that the potential impacts are
identified and trade-offs understood. At issue for SBInet is whether the appropriate mix of technical and business
disciplines, such as engineers, logisticians, contracting officers, and cost analysts will be available to staff the IPTs.

                               Risk Management Advisory on the SBInet Program Initiation


                                                          Page 5

Operational Requirements & Performance Management
                           Until the department fully defines, validates, and stabilizes the
                           operational requirements underlying the SBInet program, the
                           program’s objectives are at risk and effective cost and schedule control
                           are precluded.

                           The department deferred fully defining operational requirements until
                           after award of the systems integration contract. In selecting the
                           systems integrator, the department used a broad statement of
                           objectives as part of its acquisition strategy in order to allow industry
                           to be creative in its solutions and, consequently, deferred setting
                           contract requirements, including performance metrics, until delivery
                           task order negotiations.

                           While this approach added risk to the program during the competition
                           for a system integrator, the program office took steps to mitigate this
                           risk. The risk stemmed from the vagueness of the statement of
                           objectives. While the SBInet statement of objectives is an appropriate
                           algorithm5 for encouraging the systems engineering desired, success in
                           accomplishing this macro algorithm cannot be practically measured.
                           By not setting measurable performance goals and thresholds, the
                           government was at increased risk that offerors would rely on unproven
                           technologies and high-risk technical solutions that would delay
                           implementation or be unaffordable.

                           To mitigate this risk, the solicitation asked for solutions that used
                           commercial-off-the-shelf and government-off-the-shelf solutions, even
                           as the department publicly encouraged use of high-risk, developmental
                           items, such as unmanned aerial vehicles. Also, the department
                           required submission of quality assurance plans as part of the proposals
                           to mitigate this risk. However, it remained to be seen whether the
                           offerors would propose quality assurance plans adequate to meet the
                           department’s needs, or how the department would timely set
                           operational requirements as criteria for gauging program success or
                           timely establish a system and processes for gauging the contractor’s
                           performance. To control this risk, the department needs to refine,
                           validate and set stable operational requirements for SBInet, enabling
                           the program office to define and set contract requirements in task order


5
   The macro algorithm is to “detect entries, identify and classify, respond, resolve” which is essential to basic command
center operations and common to any systems designed to target action. The SBInet system is to detect entries when
they occur; identify what the entry is; classify its level of threat (who are they, what are they doing, how many, etc.);
effectively and efficiently respond to the entry; and bring the situation to the appropriate law enforcement resolution
(apprehension, interdiction, transport to interdiction processing point, etc.).

                               Risk Management Advisory on the SBInet Program Initiation


                                                          Page 6

negotiations, including the performance metrics needed to ensure
accomplishment of the program’s objectives.

The department needs to define and document the underlying
operational requirements, translating mission needs, describing
shortcomings with the status quo systems and tactics, setting
thresholds and objectives for key performance parameters including
affordability, and prioritizing among competing needs and conflicting
goals. Without doing so, the department will not have set a common
understanding of what the program office is to accomplish or provide
the guidance program managers need for balancing competing
objectives and making trade-offs in cost, schedule, and performance
objectives through the life of the program. Furthermore, until
operational requirements are fully defined and validated, providing
firm support and validated assumptions for the program’s cost
estimates, the credibility of budget estimates is undermined.

The program office took steps during the competition for the systems
integration contract to compensate for the lack of fully defined,
validated, stabilized, and documented requirements. While the
participating DHS and CBP officials had a strong sense of the
underlying operational requirements they expected the SBInet program
to fulfill, such an understanding was not reduced to writing and
conveyed to others. However, the SBInet program office provided
industry with a library of documents and videos that describe mission
goals, current operations, and desired improvements over current
operations. Also, the program office conducted an extensive “due
diligence” process and held oral presentations and question and answer
sessions with the competitors to better exchange information.
Additionally, the program office developed a structure to frame
analysis of the offerors’ approaches. The department then modified
the solicitation, requiring offers to be mapped to this structure; thereby
clarifying proposed approaches, assumptions, and costs and facilitating
comparisons. Eventually, this work break down analysis should
facilitate comparison of the winning industry approach to the validated
operational requirements.

However, until the operational requirements are validated and
stabilized, the SBInet program will be vulnerable to changing
direction. Changing the program’s direction will likely require
contract changes and equitable adjustments, involve rework of the
contractor’s planning, management, and systems engineering efforts,
and add cost and delay.




   Risk Management Advisory on the SBInet Program Initiation


                            Page 7

With firm requirements, the SBInet program office can and should
move quickly to implement a performance management process. A
deferred, but critical, first step in establishing control of cost, schedule,
and performance is the setting of an acquisition program baseline.
This baseline of performance and schedule requirements and total cost
estimates is needed to monitor the health of the program. The lack of
an acquisition program baseline is a significant risk to the SBInet
program. The department deferred setting a baseline until after
contract award because of the uncertainties related to industry
solutions. Without an acquisition program baseline, however, it is
impossible to gauge the effectiveness of the program. An acquisition
program baseline is a necessary first step in implementing earned
value management. The program office plans to rectify this omission
with the aforementioned Investment Review Board and Joint
Requirements Council review and approvals.

Another significant risk is the SBInet program’s lack of an earned
value management system. This comprehensive management
information and analysis system, fed by cost accounting data arrayed
against work break down structures and program schedules, is
essential to the department’s understanding of the program status, the
contractor’s performance, and reliability of program budgets and cost
estimates. It is essential for the program manager to know how the
actual cost of the work performed compares to the budgeted cost of the
work scheduled. Automated analyses of this data across the many
tasks and activities being undertaken by all personnel working on the
program should focus management attention where needed and trigger
early corrective action. Earned value management is not only a best
practice, it is an OMB capital budgeting requirement.

The department included provisions for earned value management in
the solicitation and the program office is developing plans to start and
implement the process. However, the system is not in place and the
department does not have a successful track record implementing this
valuable tool. For example, under the Deepwater program, the Coast
Guard did not timely or fully implement earned value management,
thus losing an understanding of how changing requirements were
affecting the program and a sound basis for program cost estimates.
Early, effective earned value management implementation will be key
to understanding the impact that changes will have on the program,
including trade-offs needed to balance progress across the many
components of the program.




   Risk Management Advisory on the SBInet Program Initiation


                            Page 8

Recommendations

              We recommend that:

              Recommendation #1: The CBP Commissioner, in coordination with
              the DHS Chief Procurement Officer (CPO), prepare a plan of action
              with performance milestones for developing its capacity to manage the
              program, administer its contracts and agreements, and ensure effective
              oversight and implementation. Each should specify the actions they
              will take to assist the program office in accomplishing the objectives
              of the plan, especially with regard to resource capacity building.

              Recommendation #2: The SBInet program office provide regular
              implementation status reports to the Commissioner and CPO on its
              plans for building program management and oversight capacity.

              Recommendation #3: The Commissioner and CPO develop a plan of
              action and milestones for defining, validating, and stabilizing the
              program’s operational requirements, translating them into contract
              requirements, and establishing a system of performance metrics and
              controls to gauge progress in meeting contract requirements and
              mission needs. Each should specify actions they will take in
              accomplishing the objectives of the plan, especially regarding
              resources needed to implement the plan and address ensuing contract
              and program cost estimate changes.

              Recommendation #4: The SBInet program office provide regular
              implementation status reports to the Commissioner and CPO on its
              plan of action and milestones to stabilize requirements and establish
              performance metrics and controls.




                  Risk Management Advisory on the SBInet Program Initiation


                                           Page 9

Management Comments and OIG Analysis
                         U.S. Customs and Border Protection and the Chief Procurement
                         Officer concurred with each of our recommendations6 and worked
                         with the SBInet program office to develop a corrective action plan.
                         CBP’s response is included as Appendix C and the CPO’s letter
                         affirming CBP’s response as Appendix D. The corrective action plan
                         is responsive to the concerns raised in our risk management advisory
                         letter.

                         However, CBP did not concur with the content of the advisory letter,
                         noting that it contained outdated information and omits significant
                         progress made by the SBInet program management office since our
                         review. CBP’s point is well taken and we acknowledge that a number
                         of significant events, especially regarding the award of the contract,
                         have occurred. With the award of the systems integration contract and
                         the selection of the solution proposed by Boeing, CBP has moved
                         rapidly to refine and stabilize requirements and implement
                         performance management systems and processes, while continuing to
                         build up its program management and program oversight capacity. As
                         outlined in the corrective action plan, these activities are not just the
                         result of the program office’s plans, but a concerted DHS effort to
                         provide support and oversight to this major new program. While these
                         plans and initiatives are a step in the right direction, it is imperative
                         that they are fully implemented and maintained throughout the life
                         cycle of the program. This will require close performance monitoring
                         on a regularly scheduled basis during program execution.




6
  The draft report submitted to CBP and the CPO for comment included six recommendations. We have merged these
six recommendations into the four presented in this report.

                            Risk Management Advisory on the SBInet Program Initiation


                                                     Page 10

Appendix A
Lessons Learned From Other DHS Major Acquisitions Programs




                  This appendix synopsizes our observations from prior DHS OIG and
                  GAO reviews of other DHS major acquisition programs and contracts.

                  A common thread among the department’s other major acquisition
                  programs is that they were initiated without first properly defining the
                  underlying operational requirements and without having the
                  organizational capacity to properly manage the program. Without
                  proper foundations, many of the department’s major acquisition
                  programs have not accomplished their intended purpose, experienced
                  cost overruns, and were missing program objectives. Such missteps
                  characterize the department’s new starts since its inception on
                  March 3, 2003, as well as the major programs, such as Deepwater,
                  which were transferred into the department from their legacy agencies.


The Value of Building An Internal Acquisition Management Capacity
                  The experiences of the department since its inception can be
                  characterized by a sense of urgency derived from the importance of its
                  mission. Homeland Security is an urgent and important mission, and
                  poses more difficult challenges than the department’s many legacy
                  components previously faced.

                  Developing and acquiring complex systems solutions to secure ports,
                  coasts, borders, and transportation systems is one of the most difficult
                  challenges facing the department. However, as described in our report
                  on procurement and program management operations, the department
                  was created without a substantial acquisition workforce, even as it was
                  charged with multiple complex major investments.

                  Across the department, such difficult work has overwhelmed the small
                  number of contracting officers and program managers transferred to
                  the department. Further, many of the contracting officers and program
                  managers were not trained or experienced in developing and managing
                  complex acquisition programs. However, the department has been
                  slow to recognize and respond to the need to add organic systems
                  acquisition program management capability.

                  Reviews of the department’s other major acquisitions also show the
                  involvement of operational managers, often pulled from the front lines.
                  Operational managers are important stakeholders in the program and
                  should drive setting of operational performance requirements.

                     Risk Management Advisory on the SBInet Program Initiation


                                              Page 11

Appendix A
Lessons Learned From Other DHS Major Acquisitions Programs




                          While operational managers’ sponsorship and involvement is
                          invaluable to ensuring proper mission-focus, managing major systems
                          acquisition programs requires more. It also takes the collective
                          wisdom of multiple technical and business disciplines, such as
                          engineers, logisticians, and cost analysts. Additionally, it takes
                          contracting officers’ technical representatives and asset managers.
                          Drawing on these different functional perspectives is a best practice
                          and a regulatory requirement.7

                          Lacking a proper acquisition workforce, the department has
                          experienced missteps, waste, and delays in its acquisition programs.
                          In addition to a ready workforce, robust business processes and
                          information systems are needed to enable program offices to move
                          forward expeditiously on the tasks of managing their programs and
                          contracts. Without a ready source of acquisition managers and
                          established business processes, information systems, and controls,
                          managers of new complex acquisitions have been unable to focus on
                          program objectives. Instead of moving the program forward, program
                          managers play catch-up to overcome the department’s lack of an
                          organic acquisition management capacity.


The Value of Defined, Stable Operational Requirements
                          The department’s major acquisition experiences reinforce the need for
                          the department to define, validate, and stabilize its operational
                          requirements as a necessary first step. This is especially true for
                          performance-based acquisitions. Without defined and validated
                          operational requirements, meaningful use of measures of effectiveness
                          and performance are precluded.

                          Without a foundation of well-defined, validated operational
                          requirements, acquisition programs flounder and often result in wasted
                          effort and the inefficient use of resources. Strong definition of
                          operational requirements appropriately focuses and stabilizes the
                          direction of program plans.



7
  OMB Circular A-11 requires use of Integrated Product Teams (IPTs). IPTs bring a variety of functional disciplines to
the task, ensuring full consideration of perspectives in making program decisions, so that the potential impacts are
identified and trade-offs understood.

                              Risk Management Advisory on the SBInet Program Initiation


                                                        Page 12

Appendix A
Lessons Learned From Other DHS Major Acquisitions Programs




                        Stability is key, as changing program plans alter the conditions and the
                        terms of contracts and agreements and force the rework of
                        management and systems engineering tasks. As contract changes and
                        rework drive-up costs, the reliability of program cost estimates and
                        budgets is undermined.

                        In our previous review of department procurement operations, we
                        reported that approving programs without adequately defined technical
                        requirements increases the risk of cost overruns and has adverse
                        schedule consequences.8 Specifically, contracts expedited to quickly
                        improve the nation’s security in response to rigid deadlines have
                        resulted in higher costs, schedule delays, and failures to accomplish
                        adequate technical or critical mission requirements.




8
  Department of Homeland Security’s Procurement and Program Management Operations, OIG-05-53, September
2005.

                           Risk Management Advisory on the SBInet Program Initiation


                                                    Page 13

Appendix B
Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
                   Our objective was to determine whether the SBInet acquisition had
                   established: (1) clear, stable, and measurable operational requirements
                   and (2) the organizational capacity to ensure government oversight of
                   delivery schedules and cost estimates. In addition, we determined
                   whether lessons learned from other department major acquisition
                   programs were applied.

                   We interviewed officials at the US Customs and Border Protection and
                   Department Of Homeland Security headquarters staff in Washington,
                   DC. In addition, we reviewed records supporting the SBInet
                   solicitation and assessed the quality and maturity of the CBP’s
                   program management office for SBI.

                   To identify observations for lessons learned from other DHS major
                   acquisition programs, we reviewed previous GAO and DHS OIG
                   reports and congressional testimony and interviewed the review teams.
                   We discussed comparisons with CBP officials on auditor observations
                   of what caused schedule delays, cost overruns, and prevented the
                   programs from achieving stated objectives.

                   We conducted our review between June and August 2006 under the
                   authority of the Inspector General Act of 1978, as amended. The
                   nature and brevity of this review precluded use of our normal audit
                   protocols; therefore, this review was not conducted according to
                   generally accepted government auditing standards. Had we followed
                   such standards, other matters may have come to our attention.




                      Risk Management Advisory on the SBInet Program Initiation


                                               Page 14

Appendix C
U.S. Customs and Border Protection Response to the Draft Report




                       Risk Management Advisory on the SBInet Program Initiation


                                                Page 15

Appendix C
U.S. Customs and Border Protection Response to the Draft Report




                       Risk Management Advisory on the SBInet Program Initiation


                                                Page 16

Appendix C
U.S. Customs and Border Protection Response to the Draft Report




                       Risk Management Advisory on the SBInet Program Initiation


                                                Page 17

Appendix C
U.S. Customs and Border Protection Response to the Draft Report




                       Risk Management Advisory on the SBInet Program Initiation


                                                Page 18

Appendix C
U.S. Customs and Border Protection Response to the Draft Report




                       Risk Management Advisory on the SBInet Program Initiation


                                                Page 19

Appendix C
U.S. Customs and Border Protection Response to the Draft Report




                       Risk Management Advisory on the SBInet Program Initiation


                                                Page 20

Appendix C
U.S. Customs and Border Protection Response to the Draft Report




                       Risk Management Advisory on the SBInet Program Initiation


                                                Page 21

Appendix D
Chief Procurement Officer Response to the Draft Report




                       Risk Management Advisory on the SBInet Program Initiation


                                                Page 22

Appendix E
Major Contributors to this Report



                    Phillip Maulden, Director
                    Mark Ferguson, Program Manager
                    Patricia Alcaniz, Auditor
                    Yeseira Diaz, Auditor
                    Julie Fleisher, Auditor
                    Dennis Kallusingh, Auditor
                    Maryann Pereira, Auditor
                    Sue Vernier, Auditor




                       Risk Management Advisory on the SBInet Program Initiation


                                                Page 23

Appendix F
Report Distribution




                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, DHS GAO/OIG Audit Liaison
                      DHS OIG Privacy Officer
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Undersecretary for Management
                      DHS Chief Financial Officer
                      DHS Chief Procurement Officer
                      DHS Chief Information Officer
                      Commissioner, U.S. Customs and Border Protection
                      Chief Information Officer, U.S. Customs and Border Protection
                      U.S. Customs and Border Protection Audit Liaison
                      Assistant Director, Program Analysis and Evaluation, Office of Chief
                      Financial Officer
                      Director, SBI Program Management Office, U.S. Customs and Border
                      Protection


                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Program Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                         Risk Management Advisory on the SBInet Program Initiation


                                                  Page 24

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL STOP
2600, Attention: Office of Investigations – Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528; fax the complaint to (202) 254-4292; or
email DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each
writer and caller.
